                                               NATIONAL SCIENCE FOUNDATION
                                                OFFICE OF INSPECTOR GENERAL
                                                  OFFICE OF INVESTIGATIONS

                                         CLOSEOUT MEMORANDUM

Case Number: 1-13030015                                                                    Page 1 of 1



              Our office initially received a complaint from an individual 1 against a university2
     alleging research misconduct (RM) as a result of the failure, on the part of university
     researchers, to acknowledge his contribution to their research activities when they published
     articles on those research activities. Our office did not substantiate the complainant's original
     allegation. 3

             Thereafter, the same individual wrote to numerous NSF officials, including the NSF
     Inspector General, General Counsel, and Director, alleging that OIG investigators did not
     substantiate his earlier allegation because they "covered it [the research misconduct] up in
     order to protect"4 the university.

             We travelled to the complainant's current university5 and interviewed him concerning
     his allegation of wrongdoing on the part of our investigators. When asked if he had any
     evidence to suggest possible wrongdoing, the complainant readily acknowledged that he had
     no such information, stating that he had no "direct evidence" of any intention to protect the
     university or individuals at the university. He opined that there could be no reason, other than
     to protect the university or someone at the university, for their conclusion. The complainant
     expressed obviously heartfelt disagreement with the conclusions drawn regarding his initial
     complaint. We reminded him that our investigation was limited to the allegation he raised
     concerning impropriety on the part ofNSF OIG investigators. We reviewed the language of the
     NSF RM regulation and explained that a number of subjective determinations had been made
     in the previous investigation. We noted that the issue was one of "appropriate credit," which is
     a subjective standard. We explained that the NSF RM regulation does not apply to authorship
     disputes.

              We interviewed the investigator responsible for the inquiry into the complainant's
     initial allegation to determine if there was any suggestion of an association with the university
     or individuals at the university that may have created a conflict or appearance thereof. There
     was none.

              There being no support for the allegation, this case is closed with no further action to be
     taken.



     2


     4
